                                              Office of Inspector General
                                             Corporation for National and
                                                     Community Service




     AGREED-UPON PROCEDURES OF
      CORPORATION FOR NATIONAL
   AND COMMUNITY SERVICE GRANTS
           AWARDED TO THE
WEST VIRGINIA COMMISSION FOR NATIONAL
       AND COMMUNITY SERVICE

                    OIG REPORT 08-13




                          Prepared by:

             Mayer Hoffman McCann P.C.
          Conrad Government Services Division
          12761 Darby Brooke Court, Suite 201
              Woodbridge, Virginia 22192



This report was issued to Corporation management on February 28, 2008. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
August 28, 2008, and complete its corrective actions by February 28, 2009.
Consequently, the reported findings do not necessarily represent the final resolution of
the issues presented.
                                         February 28,2008



TO:            Kristin McSwain
               Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management


FROM:          Carol Bates (2-                 2
               Assistant Inspector General for Audit


SUBJECT:       Report 08-13, Agreed-Upon Procedures for Corporation of National and
               Community Service (Corporation) Grants Awarded to the West Virginia
               Commissionfor National and Community Service


We contracted with the independent certified public accounting firm of Mayer Hoffman
McCann P.C. (MHM) to perform agreed-upon procedures in its review of Corporation grants
awarded to the West Virginia Commission for National and Community Service
(Commission). The contract required that MHM conduct its review in accordance with
generally accepted government auditing standards.

MHM is responsible for the attached report, dated February 22, 2008, and the conclusions
expressed therein. We do not express opinions on the Commission's Consolidated Schedule
of Award costs, conclusions on the effectiveness of internal controls, or compliance with
laws, regulations, and grant provisions.

Under the Corporation's audit resolution policy, a final management decision on the findings
in this report is due by August 28,2008. Notice of final action is due by February 28,2009.

If you have questions pertaining to this report, please call me at 202-606-9356.

Attachment

Courtesy Copy Distribution: See next page



                   1201 New York Avenue, NW* Suite 830, Washington, DC 20525
                                                            *
                     202-606-9390 Hotline: 800-452-8210 www.cncsoi~.rov
                                                                                   Freedom Corps
                       Senior Corps   * AmeriCorps * Learn and Serve America       Make a Difference. Volunteer.
cc:   Kim Barber Tieman, Executive Director, West Virginia
       Commission for National and Community Service
      The Honorable Glen B. Gainer III, State Auditor for
       West Virginia
      William Anderson, Deputy Chief Financial Officer
      Sherry Blue, Audit Resolution Coordinator
      Randal G. Vellocido, Shareholder, Conrad Government
       Services Division, Mayer Hoffman McCann, P.C.
                 AGREED-UPON PROCEDURES OF
      CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                   GRANTS AWARDED TO THE
WEST VIRGINIA COMMISSION FOR NATIONAL AND COMMUNITY SERVICE


                                     Table of Contents

                                                                               Page

Results                                                                         1

Agreed-Upon Procedures Scope                                                    2

Background                                                                      3

Independent Accountants’ Report on Applying Agreed-Upon Procedures              5

   Cost and Awards Results                                                      6

          Consolidated Schedule of Award Costs                                  7

          Exhibit: Schedule of Award and Claimed Costs by Grant                 8

          Schedule A-1 – Schedule of Award and Claimed Costs, Monroe County     9
                         Schools

          Schedule A-2 – Schedule of Award and Claimed Costs, West Virginia    10
                         University Research Corporation

          Schedule A-3 – Schedule of Award and Claimed Costs, United Way of    11
                         Central West Virginia - Lifebridge

          Schedule A-4 – West Virginia Commission for National and Community   12
                         Service

   Compliance and Internal Control                                             13

Appendix A – West Virginia Commission for National and Community
             Service’s Response to Draft Report
Appendix B – Corporation for National and Community Service’s
             Response to Draft Report
                                        RESULTS

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Mayer Hoffman McCann P.C. (MHM) to perform agreed-
upon procedures of grant cost and compliance for Corporation-funded Federal assistance
provided to the West Virginia Commission for National and Community Service
(Commission).

As a result of applying these procedures, MHM questioned claimed Federal-share costs of
$28,852. A questioned cost is an alleged violation of provision of law, regulation, contract,
grant, cooperative agreement, or other agreement or document governing the expenditure of
funds; or a finding that, at the time of testing, such cost is not supported by adequate
documentation. The detailed results of our agreed-upon procedures on claimed costs are
presented in the Consolidated Schedule of Award Costs (page 7) and supporting exhibit and
schedules.

Costs Claimed and Questioned

The Commission claimed total costs of $4,004,719 from October 1, 2005, through June 30,
2007. As a result of testing a judgmental sample of transactions, MHM questioned costs
claimed, as follows:

                                                                            Federal
                     Description                      Grant Number           Share

   Costs Incurred Before Grant Awarded                06CAHWV001             $      804
   Unallowable Recognition Costs                      06CAHWV001                    135
   Costs Incurred Before Grant Awarded                06CDHWV001                    175
   Costs Incurred Without Prior Written Approval      06PTHWV001                  1,050
   Unallowable Recognition Costs                      06KCHWV001                      75
   Unallowable Entertainment Costs                    03ACHWV001                  1,500
   Unbudgeted Personnel Costs                         03ACHWV001                 22,500
   Unallocable Rent Costs                             03ACHWV001                  2,207
   Member Contract Signed Untimely                    03AFHWV001                    406

                                              Total                          $   28,852

AmeriCorps members who successfully complete terms of service are eligible for education
awards and interest forbearance funded by the National Service Trust. These award amounts
are not funded by Corporation grants and thus are not costs claimed by the Commission. As
part of our agreed-upon procedures, however, we determined the effect of audit findings on



                                             1
eligibility for these awards. Using the same criteria described above, we did not question any
education awards.

Details related to these questioned costs appear in the Independent Accountants’ Report on
Applying Agreed-Upon Procedures (page 5).

Compliance Issues

The results of our agreed-upon procedures showed instances of non-compliance with grant
provisions, regulations, or Office of Management and Budget (OMB) circulars, as shown
below and in the Compliance and Internal Control section. Issues identified included:

           •   Lack of Sufficient Subgrantee Monitoring by the Commission;

           •   Inadequate Controls over Recording and Reporting Costs;

           •   Late Submission of Member Program Forms, Progress Reports, and Periodic
               Expense Reports (PERs); and

           •   Lack of Adequate Procedures to Ensure Program Compliance.

Exit Conference

The contents of this report were discussed with the Corporation and the Commission at an
exit conference held in Charleston, West Virginia, on October 26, 2007. In addition, we
provided a draft of this report to the Commission and to the Corporation for comment on
January 11, 2008. The Commission’s response to the findings and recommendations in the
draft report are summarized in this report and are included in Appendix A. The Corporation
did not respond to the individual findings and recommendations. Its response is in
Appendix B.

                        AGREED-UPON PROCEDURES SCOPE

The agreed-upon procedures covered the allowability, allocability, and reasonableness of
financial transactions claimed under funding provided by the Corporation for the following
awards, as well as grant match costs for grant awards and periods listed below.

           Program           Award Number            Award Period            Testing Period
AmeriCorps – Formula         03AFHWV001           08/01/03 to 05/31/07   10/01/05 to 03/31/07
AmeriCorps – Formula         06AFHWV001           08/15/06 to 08/14/09   08/15/06 to 03/31/07
AmeriCorps – Competitive     03ACHWV001           08/01/03 to 05/31/07   10/01/05 to 03/31/07
AmeriCorps – Competitive     06ACHWV001           08/01/06 to 07/31/09   08/01/06 to 03/31/07
Administrative               06CAHWV001           01/01/06 to 12/31/08   01/01/06 to 06/30/07
PDAT                         06PTHWV001           01/01/06 to 12/31/08   01/01/06 to 06/30/07
Disability                   06CDHWV001           01/01/06 to 12/31/08   01/01/06 to 06/30/07
Learn & Serve America        06KCHWV001           08/01/06 to 07/31/09   08/01/06 to 06/30/07
Education Award              04ESHWV001           07/01/06 to 06/30/08   07/01/06 to 12/31/06


                                              2
We also performed tests to determine compliance with grant terms and provisions. We
performed our agreed-upon procedures during the period August 13 through October 17,
2007.

The OIG’s agreed-upon procedures program, dated February 2007, provides for
understanding the Commission; reconciling costs claimed and match costs to accounting
records; testing compliance provisions of the grant; and testing claimed grant and match
costs. These procedures are described in more detail on Page 5 in the Independent
Accountants’ Report.

                                     BACKGROUND

The Corporation, pursuant to the authority of the National and Community Service Trust Act
of 1993, as amended, awards grants and cooperative agreements to State commissions, such
as the West Virginia Commission for National and Community Service, and other entities to
assist in the creation of full-time and part-time national and community service programs.

The West Virginia Commission is located in Charleston, West Virginia. The Commission,
part of the Governor’s Office, has 11 employees, including an Executive Director. In
addition, the Commission performs accounting activities, which include accumulating
Periodic Expense Reports (PERs) from subgrantees and preparing Financial Status Reports
(FSRs). Accounts payable duties are also performed at the Commission and include the
review and approval process, which occurs before it submits vouchers for payment to the
State. Copies of all documentation are maintained at the Commission with originals on file
in the Governor’s Office.

As illustrated in the following table, the Commission received about $15.6 million in funding
for various Corporation grants, and has claimed costs of about $4 million. Of the amount of
funding received, the Commission awarded approximately $14.5 million to the AmeriCorps
subgrantees, including local school districts and nonprofit entities.




                                             3
                                                                           Claimed
                                                           Funding        Within Audit
         Corporation Grants                              Authorized          Period
  03AFHWV001 – AmeriCorps Formula                       $ 1,465,023        $ 469,969
  06AFHWV001 – AmeriCorps Formula                          1,093,932          265,343
  03ACHWV001 – AmeriCorps Competitive                      7,320,805        2,158,720
  06ACHWV001 – AmeriCorps Competitive                      4,621,671          522,712
                            Total AmeriCorps            $ 14,500,531      $ 3,416,744

  06CAHWV001 – Administrative                                308,812           225,087

  06CDHWV001 – Disability                                    120,408            63,921

  06KCHWV001 – Learn & Serve America                         431,000           138,632

  04ESHWV001 – Education Award                                39,992            37,930

  06PTHWV001 – PDAT                                          215,500           122,405

                        Total – Grants Administered     $ 15,616,243       $ 4,004,719

We compared the inception-to-date drawdown amounts with the amounts reported in the last
FSR submitted for each grant and determined that the drawdowns were reasonable.




                                           4
                Conrad Government Services Division 




 Inspector General
 Corporation for National and Community Service

                              INDEPENDENT ACCOUNTANTS’ REPORT ON
                               APPLYING AGREED-UPON PROCEDURES

 We have performed the procedures described below, which were agreed to by the OIG solely
 to assist it in grant-cost and compliance testing of Corporation-funded Federal assistance
 provided to the Commission for the awards and periods listed below. This agreed-upon
 procedures engagement was performed in accordance with standards established by the
 American Institute of Certified Public Accountants and generally accepted government
 auditing standards. The sufficiency of these procedures is solely the responsibility of the
 OIG. Consequently, we make no representation regarding the sufficiency of the procedures
 described below, either for the purpose for which this report has been requested or any other
 purpose.

        Program                  Award Number               Award Period                 Testing Period
AmeriCorps – Formula             03AFHWV001              08/01/03 to 05/31/07        10/01/05 to 03/31/07
AmeriCorps – Formula             06AFHWV001              08/15/06 to 08/14/09        08/15/06 to 03/31/07
AmeriCorps – Competitive         03ACHWV001              08/01/03 to 05/31/07        10/01/05 to 03/31/07
AmeriCorps – Competitive         06ACHWV001              08/01/06 to 07/31/09        08/01/06 to 03/31/07
Administrative                   06CAHWV001              01/01/06 to 12/31/08        01/01/06 to 06/30/07
PDAT                             06PTHWV001              01/01/06 to 12/31/08        01/01/06 to 06/30/07
Disability                       06CDHWV001              01/01/06 to 12/31/08        01/01/06 to 06/30/07
Learn & Serve America            06KCHWV001              08/01/06 to 07/31/09        08/01/06 to 06/30/07
Education Award                  04ESHWV001              07/01/06 to 06/30/08        07/01/06 to 12/31/06

 We were not engaged to, and did not perform an examination, the objective of which would
 be the expression of an opinion on management’s assertions. Accordingly, we do not express
 such an opinion. Had we performed other procedures, other matters might have come to our
 attention that would have been reported to you.

 The procedures that we performed included:

        •   Obtaining an understanding of the Commission and its subgrantee monitoring
            process.

        •   Reconciling grant costs claimed and match costs to the accounting systems of the
            Commission and of selected subgrantees in our sample.


         2301 Dupont Drive, Suite 200 y Irvine, California 92612 y 949-474-2020 ph y 949-263-5520 fx
   12761 Darby Brooke Court, Suite 201 y Woodbridge, Virginia 22192 y 703-491-9830 ph y 703-491-9833 fx


                                                     5
       •   Testing subgrantee member files to verify that the records supported member
           eligibility to serve and allowability of living allowances and education awards.

       •   Testing compliance of the Commission and a sample of subgrantees on certain
           grant provisions and award terms and conditions.

       •   Testing claimed grant costs and match costs of the Commission and a sample of
           subgrantees to ensure:

           i. Proper recording of the AmeriCorps grants, Administrative grant, PDAT
              grant, Learn and Serve America grant, Disability Placement grant, and
              Education Award grant;

           ii. Costs were properly matched; and

           iii. Costs were allowable and supported in accordance with applicable
                regulations, OMB circulars, grant provisions, and award terms and conditions.

The results of testing showed questioned costs and instances of noncompliance. The testing
results for costs follow in the Cost and Awards Section and are summarized in the
Consolidated Schedule of Award Costs and the exhibit and schedules. The results of our
agreed-upon procedures also revealed instances of non-compliance with grant provisions,
regulations, or Office of Management and Budget (OMB) requirements, as shown in the
Compliance and Internal Control section. Issues identified included:

           •   Lack of Sufficient Subgrantee Monitoring by the Commission;

           •   Inadequate Controls over Recording and Reporting Costs;

           •   Late Submission of Member Program Forms, Progress Reports, and Periodic
               Expense Reports (PERs); and

           •   Lack of Adequate Procedures to Ensure Program Compliance.

Cost and Award Results

The following schedules and exhibit provide the results of testing costs claimed.




                                              6
                         Consolidated Schedule of Award Costs
                Corporation for National and Community Service Awards
               West Virginia Commission for National and Community Service

                                 October 1, 2005, to June 30, 2007

                                             Approved                     Questioned
Award Number             Program              Budget      Claimed Costs     Costs      Reference

03AFHWV001      AmeriCorps-Formula          $ 1,465,023      $ 469,969     $    406     Exhibit
03ACHWV001      AmeriCorps-Competitive        7,320,805       2,158,720      26,207     Exhibit
06AFHWV001      AmeriCorps-Formula            1,093,032         265,343           -
06ACHWV001      AmeriCorps-Competitive        4,621,671         522,712           -
                      Total AmeriCorps      $14,500,531      $3,416,744    $ 26,613     Exhibit

06CAHWV001      Administrative                 308,812          225,087         939     Exhibit

06CDHWV001      Disability                     120,408           63,921         175     Exhibit

06KCHWV001      Learn & Serve                  431,000          138,632          75     Exhibit

04ESHWV001      Education Award                 39,992           37,930            -

06PTHWV001      PDAT                           215,500          122,405        1,050    Exhibit

                                   Totals   $15,616,243    $ 4,004,719     $ 28,852




                        Notes to Consolidated Schedule of Award Costs

Basis of Accounting

The accompanying schedules have been prepared to comply with provisions of the grant
agreements between the Corporation and the Commission. The information presented in the
schedules has been prepared from reports submitted by the Commission to the Corporation
and accounting records of the Commission and its subgrantees. The basis of accounting used
in the preparation of these reports differs from accounting principles generally accepted in
the United States of America as discussed below.

Equipment

No equipment was purchased and claimed under Federal or grantee share of cost for the
period within our audit scope.

Inventory

Minor materials and supplies are charged to expense during the period of purchase.




                                                   7
                                                                                          EXHIBIT

                 Schedule of Awards and Claimed Costs by Grant
             West Virginia Commission for National and Community Service
                            October 1, 2005, to June 30, 2007

                                                              Claimed      Questioned
Awards                                                         Costs         Costs       Reference

              03AFHWV001 – Formula
Monroe County Schools *                                       $ 138,435       $   406 Schedule A-1
Marshall County Schools Parent Educator Resource Center         120,335             -
Kanawha Institute for Social Research                           104,450             -
Community Resources, Inc.                                       106,749             -
                                                Sub-total     $ 469,969       $   406

            03ACHWV001 – Competitive
West Virginia University Research Corporation *               $1,176,308      $24,000 Schedule A-2
Southern West Virginia Community College                         402,229            -
United Way of Central West Virginia *                            580,183        2,207 Schedule A-3
                                                  Sub-total   $2,158,720      $26,207

              06AFHWV001 – Formula
Monroe County Schools *                                       $  75,573       $     -
Marshall County Schools Parent Educator Resource Center          55,436             -
Kanawha Institute for Social Research                            48,101
Mission West Virginia                                            34,625             -
Southern West Virginia Community College                         51,608             -
                                                Sub-total     $ 265,343       $     -

            06ACHWV001 – Competitive
West Virginia University Research Corporation *               $  57,213       $     -
Community Resources, Inc.                                        89,815             -
United Way of Central West Virginia *                           375,684             -
                                                  Sub-total   $ 522,712       $     -

                                        Subgrantees’ Total    $3,416,744      $26,613

                 Commission Awards
Administrative (06CAHWV001)                                   $ 225,087       $   939   Schedule A-4
Disability (06CDHWV001)                                          63,921           175   Schedule A-4
Learn and Serve (06KCHWV001)                                    138,632            75   Schedule A-4
PDAT (06PTHWV001)                                               122,405         1,050   Schedule A-4
Education Award (04ESHWV001)                                     37,930             -
                                      Commission’s Total      $ 587,975       $ 2,239

*Selected for Application of Agreed-Upon Procedures




                                                    8
                                                                           Schedule A-1
                                                                             Page 1 of 1

                        Schedule of Award and Claimed Costs
                              Monroe County Schools

                   Awards 03AFHWV001002 and 06AFHWV001002
                         October 1, 2005, to March 31, 2007


                                                                                Reference

Approved Budget (Federal Funds)                                      $300,000     Note 1
Claimed Federal Costs                                                $214,008     Note 2
Questioned Costs:
   Living Allowance – Applicant Received Prior to Contract
   (03AFHWV0010002)                                        $   406                Note 3
     Total Questioned Costs                                          $    406

Notes

1. The amount shown above as Approved Budget represents the total funding to Monroe
   County Schools according to the subgrantee agreements.

2. Claimed Federal costs represent Monroe County School’s reported expenditures for the
   period October 1, 2005, through March 31, 2007.

3. Member contracts were not always completed and signed by members in the program
   prior to the member’s start date, which resulted in questioned living allowances (see
   Finding 4). We did not question match of $72 associated with questioned costs of $406
   in Federal share because Monroe County School has additional match, which it could
   substitute. For any amount of the living allowance and fringe benefit costs determined
   unallowable, the associated administrative costs should also be recovered.




                                            9
                                                                             Schedule A-2
                                                                               Page 1 of 1

                    Schedule of Award and Claimed Costs
                West Virginia University Research Corporation

                 Awards 03ACHWV0010003 and 06ACHWV0010003
                        October 1, 2005, to March 31, 2007


                                                                                Reference

Approved Budget (Federal Funds)                                 $2,447,805         Note 1
Claimed Federal Costs                                           $1,233,521         Note 2
Questioned Costs: (03ACHWV0010003)
   Entertainment Costs                              $ 1,500                        Note 3
   Unbudgeted Personnel Costs                        22,500                        Note 4
     Total Questioned Costs                                     $   24,000

Notes

1. The amount shown above as Approved Budget represents the total funding to West
   Virginia University Research Corporation according to the subgrantee agreements.

2. Claimed costs represent West Virginia University Research Corporation’s reported
   Federal expenditures for the period October 1, 2005, through March 31, 2007.

3. Unallowable entertainment (karaoke) costs were claimed under the program, resulting in
   questioned costs (see Finding 2).

4. Unallowable personnel costs were claimed under the program, resulting in questioned
   costs (see Finding 2).




                                           10
                                                                           Schedule A-3
                                                                             Page 1 of 1

                   Schedule of Award and Claimed Costs
              United Way of Central West Virginia - Lifebridge

                 Awards 03ACHWV0010001 and 06ACHWV0010002
                        October 1, 2005, to March 31, 2007

                                                                              Reference

Approved Budget (Federal Funds)                               $1,243,741         Note 1
Claimed Federal Costs                                         $ 955,867          Note 2
Questioned Costs:
   Rent Costs (03ACHWV0010001)                     $ 2,207                       Note 3
     Total Questioned Costs                                   $    2,207

Notes

1. The amount shown above as Approved Budget represents the total funding to the United
   Way of Central West Virginia according to the subgrantee agreements.

2. Claimed costs represent the United Way of Central West Virginia’s reported Federal
   expenditures for the period October 1, 2005, through March 31, 2007.

3. Unallowable rent costs were claimed under the program, resulting in questioned costs
   (see Finding 2).




                                          11
                                                                               Schedule A-4
                                                                                 Page 1 of 1

                    Schedule of Award and Claimed Costs
        West Virginia Commission for National and Community Service
        Awards 06CAHWV001, 06PTHWV001, 06CDHWV001, 06KCHWV001, and
                                04ESHWV001
                        January 1, 2006, to June 30, 2007

                                                                                  Reference

Approved Budget (Federal Funds)                                   $1,115,712         Note 1
Claimed Federal Costs                                             $ 587,975          Note 2
Questioned Costs:
   Costs Incurred Before Award (06CAHWV001)              $ 804                       Note 3
   Recognition Costs (06CAHWV001)                          135                       Note 3
   Costs Incurred Before Award (06CDHWV001)                175                       Note 4
   Recognition Costs (06KCHWV001)                           75                       Note 5
   Costs Incurred Without Prior Written
     Approval (06PTHWV001)                                1,050                      Note 6
        Total Questioned Costs                                    $    2,239
Notes

1. The amount shown above as Approved Budget represents the total funding to the
   Commission according to the grant award documents.

2. Claimed costs represent the Commission’s reported Federal expenditures for the period
   January 1, 2006, through June 30, 2007.

3. Certain costs were claimed to the Administrative grants prior to the start of the program
   resulting in questioned costs. Also, unallowable costs for recognition were claimed,
   resulting in questioned costs (see Finding 2).

4. Certain costs were claimed to the Disability grant prior to the start of the program,
   resulting in questioned costs (see Finding 2).

5. Unallowable costs for recognition were claimed to the Learn and Serve grants, resulting
   in questioned costs (see Finding 2).

6. Costs were claimed to the PDAT grant without prior written approval from the
   Corporation, resulting in questioned costs (see Finding 2).




                                            12
Compliance and Internal Control

In addition to the costs and award results described in the Consolidated Schedule of Award
Costs, results of our tests disclosed instances of noncompliance and deficiencies in internal
controls.

Finding No. 1 – Lack of Sufficient Subgrantee Monitoring by the Commission

Commission monitoring activities, such as site visits and subgrantee OMB Circular A-133
report reviews fell behind because of staff turnover. The Commission policies state that
monitoring would be performed, at least, once a year on each of its subgrantees.

The Commission indicated it experienced personnel changes due to increased turnover in the
AmeriCorps Program Manager position and had found it difficult to manage the day-to-day
activities. The Commission believes the turnover resulted from the constraints within the
State’s pay structure, which make the position less attractive than higher-paying positions
elsewhere. This turnover and the challenge of finding a capable individual to fill the position
left few resources for monitoring.

We noted that the Commission has not made site visits since the spring of 2006 and the
following A-133 audit reports have not been reviewed:

                         Subgrantee                            Reports not Reviewed
        Monroe County Schools                                          2005
        Marshall County                                            2005 & 2006
        KISRA                                                   2004, 2005 & 2006
        Southern West Virginia Community College                 2004, 2005, 2006
        West Virginia University Research Corporation               2005, 2006
        United Way of Central West Virginia - Lifebridge            2005, 2006

We believe onsite monitoring would have provided an opportunity for early detection and
correction of the discrepancies discussed in detail in Findings 2 through 4:

   •   Unsupported costs;
   •   Commingling of funds in accounting system;
   •   Untimely submission of reports;
   •   Untimely submission of member documents; and
   •   Living allowances not paid in equal increments.

This lack of sufficient onsite monitoring left Commission subgrantees without the necessary
feedback for administering the grants and placed the Commission at risk of claiming costs
that were not in accordance with the grant provisions or Federal cost principles.




                                              13
Criteria

AmeriCorps Provision, V, General Provisions, A., Responsibilities under Grant
Administration, continues the requirements of prior years and states in part:

       1. Accountability of Grantee. The grantee has full fiscal and programmatic
       responsibility for managing all aspects of the grant and grant-supported
       activities, subject to the oversight of the Corporation. The grantee is
       accountable for its operation of the AmeriCorps Program and the use of
       Corporation grant funds.

45 C.F.R. § 2541.400(a), Monitoring and reporting program performance, states in part:

       Monitoring by grantees. Grantees are responsible for managing the day-to-
       day operations of grant and subgrant supported activities. Grantees must
       monitor grant and subgrant supported activities to assure compliance with
       applicable Federal requirements and that performance goals are being
       achieved. Grantee monitoring must cover each program, function or activity.

Furthermore, 45 C.F.R. § 2250.80 [sic] [45 C.F.R. § 2550.80], What are the duties of the
State entities?, states in part:

       (d) Administration of the grants program. After subtitle C and community-
       based subtitle B funds are awarded, States entities will be responsible for
       administering the grants and overseeing and monitoring the performance and
       progress of funded programs.

       (e) Evaluation and monitoring. State entities, in concert with the Corporation,
       shall be responsible for implementing comprehensive, non-duplicative
       evaluation and monitoring systems.

Recommendations

We recommend the Corporation:

   1. Ensure the Commission enhances its policies to incorporate alternate procedures
      when staff resources affect its ability to perform onsite monitoring.

   2. Obtain the Commission’s improved monitoring plan and documentation that the plan
      was carried out.

Commission’s Response

The Commission hired an Executive Director to replace the Executive Director that retired in
October 2007. The new Executive Director is committed to restoring rigorous training,
monitoring, and compliance practices. Within the next year, the Commission plans to model



                                             14
all granting and monitoring processes on the documented AmeriCorps procedures so that in
the event of future turnover, staff from other grant programs will already be cross-trained and
ready to assist until vacant positions are filled. Finally, the Performance Oversight
Committee of the Commission is working with our AmeriCorps Program staff to ensure
monitoring oversight and compliance.

Auditor’s Comment

The actions proposed by the Commission should be considered by the Corporation, which
should also follow up to ensure that the Commission’s planned actions were implemented
and effective.


Finding No. 2 – Inadequate Controls Over Recording and Reporting Costs

Fieldwork at the Commission and subgrantee locations revealed inadequate controls, or
established controls that were not fully implemented. We identified the weaknesses at the
Commission and certain subgrantees, as follows:

Commission. The Commission claimed Federal share costs, totaling $2,239, for (1) services
rendered prior to the start of the programs in January 2006, (2) gift cards to volunteer peer
reviewers, and (3) a fee paid to a grant proposal writer without prior written approval to
charge it as a direct cost. OMB Circular A-87 requires an authorization before incurring
costs, provides that the value of volunteer services can not be reimbursed, and requires prior
written approval to charge proposal preparation as a direct cost.

The Commission claimed costs of $979 to the Administrative and Disability grants for
services rendered prior to the start of the programs in January 2006. The payments made
included travel reimbursements and the retainer fee for the consultants that completed the
statewide comprehensive plan. The Commission staff claimed the costs to the grant when
payment was made not when the services were received, and they did not request prior
written approval from the Corporation to incur these costs before the grant award. It also
claimed costs for gift cards given to peer reviewers in appreciation for their volunteered
services in the amount of $135 and $75 (14 gift cards at $15 each = $210) to the
Administrative and the Learn and Service grants, respectively. Federal regulations allow
grantees to claim volunteered time as in-kind match. Gifts to volunteers should not be
claimed as a Federal expense regardless of the way the grantee decides to treat the
volunteered time.

In addition, the Commission claimed as a direct cost $1,050 to the PDAT grant for a fee paid
to a grant proposal writer. This fee was to assist a subgrantee with the upcoming Program
Year 2007-2008 competitive grant. Such costs are allowable as indirect costs or, with the
prior written approval of the awarding agency, allowable as direct costs. However, the
Commission staff was not aware of the A-87 requirements and these costs were claimed as
direct costs without prior written approval.




                                              15
Criteria

The attachments to OMB Circular A-87, Costs Principles for State, Local, and Indian tribal
Governments, provides applicable criteria, as follows:

Attachment B, Selected Items of Cost, states in part:

       31. Pre-award costs. Pre-award costs are those incurred prior to the effective date of
       the award directly pursuant to the negotiation and the anticipation of the award where
       such costs necessary to comply with the proposed delivery schedule or period of
       performance. Such costs are allowable only to the extent that they would have been
       allowable if incurred after the date of the award and only with the written approval of
       the awarding agency.


Attachment B, Selected Items of Cost, Section 12.b.(1), Donated services received, states:

       Donated or volunteer services may be furnished to a governmental unit by
       professional or technical personnel, consultants, and other skilled or unskilled
       labor. The value of these services is not reimbursable either as a direct or
       indirect cost. However, the value of donated services may be used to meet
       cost sharing or matching requirements in accordance with the Federal Grants
       Management Common Rule.

Attachment B, Selected Items of Cost, Section 33, Proposal costs, states:

       Costs of preparing proposals for potential Federal awards are allowable.
       Proposal costs should normally be treated as indirect costs and should be
       allocated to all activities of the governmental unit utilizing the cost allocation
       plan and indirect cost rate proposal. However, proposal costs may be charged
       directly to Federal awards with the prior approval of the Federal awarding
       agency.

Monroe County Schools (MCS). MCS claimed labor costs to the program at the budgeted
percentage instead of costs of actual labor performed. Time sheets were maintained that
showed labor distributed to each program; however, the time sheets were not used to allocate
labor costs. Although the labor was incorrectly claimed, we determined that claimed costs
did not exceed actual labor costs incurred for the program.

In addition, the program personnel and the accounting department did not adequately
coordinate, which caused the general ledger to show Federal costs to be overstated and match
costs to be understated. MCS did not properly segregate expenses in its accounting system
between Federal and grantee share. However, MCS personnel charged costs to the
program’s PER, but did not reconcile the PER to the general ledger. The AmeriCorps
program personnel charged costs to Federal share or to match according to its approved




                                              16
budget. All transactions were charged to match once they reached the ceiling on the Federal
share.

Criteria

OMB Circular A-21, Cost Principles for Educational Institutions, Section J, General
provisions for selected items of cost, item 10.b.(2)(b), states in part, “The method must
recognize the principle of after-the-fact confirmation or determination so that costs
distributed represent actual costs.”

AmeriCorps Provisions, V, General Provisions, B., Financial Management Standards, item
1., General, states in part, “The Grantee must maintain financial management systems that
include standard accounting practices, sufficient internal controls, a clear audit trail and
written cost allocation procedures as necessary.”

West Virginia University Research Corporation (WVU). WVU claimed $24,000 for
entertainment and unbudgeted personnel costs.

WVU claimed $1,500 as Federal share for karaoke charges during program year 2005-2006.
The karaoke activities were performed in the evening on the second day of WVU’s three-day
annual training event. Attendance at the evening karaoke activities was optional, and WVU
did not provide sign-in sheets. Although WVU representatives orally described the event as
team building and therefore allowable, the agenda described the event as “karaoke
entertainment.” Weighing all the factors, we considered this expense to be entertainment and
unallowable.

WVU also claimed unbudgeted personnel costs to the program during Program Year 2005-
2006. Personnel costs of $22,500 for the site coordinator were claimed to the Federal share
and not the budgeted grantee’s share. WVU submitted a budget transfer request, which was
approved by the Commission, to be used to fund WVU employee pay raises, but it was used
instead to fund site coordinator personnel costs.

Criteria

OMB Circular A-21, Cost Principles for Educational Institutions, Section J, General
provisions for selected items of cost, item 17, Entertainment costs, states, “Costs of
entertainment, including amusement, diversion, and social activities and any costs directly
associated with such costs (such as tickets to shows or sports events, meals, lodging, rentals,
transportation, and gratuities) are unallowable.”

The cooperative agreement between the Commission and the subgrantee, Section I.B.
Amendments, states in part: “A written amendment may not be required for transfers
between or among budget line items, though written permission from the Commission must
be obtained prior to such changes.” Section II.B. Budget and budget revisions, states in part,
“The Grantee may make budgetary revisions only by obtaining written permission from the
Commission prior to the change.”



                                              17
United Way of Central West Virginia - Lifebridge (United Way). United Way claimed
unbudgeted rental costs of $2,207 to the program during program year 2005-2006. In
addition, United Way maintained a separate set of accounts in its general ledger to track
Federal and grantee expenses on every cost category, but it commingled these expenses
within both sets of accounts. The accounting system seems to be capable of accounting for
Federal share separately from grantee expenses, but United Way has not used this capability.
As a substitute, the subgrantee maintains a spreadsheet as its ledger for the AmeriCorps
grant. The program manager uses the information in the spreadsheet to complete PERs and
any necessary report related to the grant. United Way may be able to use its accounting
system more effectively by reconciling monthly the spreadsheets and PER with the
information contained in the GL.

Criteria

The cooperative agreement between the Commission and the subgrantee provides applicable
criteria. Section I.B. Amendments, states in part, “A written amendment may not be required
for transfers between or among budget line items, though written permission from the
Commission must be obtained prior to such changes.” Section II.B. Budget and budget
revisions, states in part, “The Grantee may make budgetary revisions only by obtaining
written permission from the Commission prior to the change.”

AmeriCorps Provisions, V, General Provisions, B., Financial Management Standards, item
1., General, states in part, “The Grantee must maintain financial management systems that
include standard accounting practices, sufficient internal controls, a clear audit trail and
written cost allocation procedures as necessary.”

The cooperative agreement between the Commission and the subgrantee, states in part:

       As a recipient of an award under the AmeriCorps program, the Grantee agrees
       to administer the funded program in accordance with the approved grant
       application and budget, supporting documents, and other representations made
       in support of the approved grant application. The Grantee agrees to comply
       with all terms and conditions in the agreement and the applicable provisions
       of the AmeriCorps Provisions.

Recommendations

We recommend that the Corporation:

   3. Determine the allowability of the questioned costs and recoup unallowable and
      administrative costs that were charged to the grant;

   4. Ensure the Commission trains and monitors its subgrantees in establishing controls,
      which should include developing a record-keeping system in which grant
      documentation is properly segregated; developing timekeeping procedures that



                                            18
       comply with regulation and grant requirements; and designing controls to verify the
       accuracy of costs claimed.

Commission’s Response

The Commission plans to improve its processes by using the Grants Module in the West
Virginia Financial Information Management System for each individual budget period of
three-year grants. This will provide the additional layer of coding needed to distinguish year-
end expenses. The Commission also plans to establish its own internal requirements for
travel reimbursements that will ensure timely identification and payment of travel costs. The
Commission has made adjusting entries to remove the gift cards expenses from federal grants
and matching sources.

The Commission disagreed that its costs were incurred without prior written approval. The
Commission stated that costs were incurred by a subgrantee and not by the Commission;
therefore, the subgrantee’s cost is allowable according to 2 C.F.R. § 230, Cost Principles for
Nonprofit Organizations.

For MCS, the Commission staff met with the MCS’s program director to discuss proper
documentation of time and the process to allocate labor costs to match. Commission staff
will follow up to ensure compliance.

For WVU, the Commission plans to integrate examples of allowable and unallowable costs
into the program director training sessions and meetings. Program directors will be
encouraged to document all program expenditures that could potentially be considered
different from the budget detail. The Commission requests that the Corporation allow the
questioned Unbudgeted Personnel Costs. While the wording in the line-item transfer was not
exact; the Commission Program Officer understood the purpose of the budget transfer and
approved that request. The Commission has instituted a procedure in which all telephone
requests must be documented after the call with an e-mail exchange that will clarify and
formalize verbal requests.

For the United Way, the Commission plans to strengthen subgrantee training, as well as the
training of the Commission’s new AmeriCorps team. However, the Commission requests
that the Corporation allow the costs because it believes the costs are allowable under the
authority of 2 C.F.R. § 230, but concedes that the Commission’s procedures that require
written permission were not followed.

Auditor’s Comment

The Corporation should consider the Commission’s proposed actions. However, the
Commission’s records, not the subgrantee’s records, showed the Commission had charged
the costs of a proposal writer as a direct cost to the PDAT grant. The PDAT grant should not
pay the fee for the grant proposal writer because:




                                              19
   •   The Commission, not the subgrantee, paid the grant proposal writer as a direct cost
       although the benefits were for a single subgrantee;

   •   The criteria cited in the finding above, OMB Circular A-87, authorizes payment for
       proposal costs in certain instances, none of which apply to preparing the proposal
       costs incurred by the Commission for a subgrantee; and

   •   The proposal writer cost for a subgrantee is a consultant cost incompatible with
       PDAT grant funds, which are intended for capacity building and infrastructure
       development. Further, the costs of training of a single subgrantee should be funded
       from the subgrantee’s budget in accordance with the Provisions for State
       Administrative, PDAT, and Disability Placement Awards.

For WVU, the Corporation and the Commission should consider the weakening effect of
Commission controls when officials deviate from subgrant requirements, acting in good faith
or not. The management control in place required written approval and the Commission
official and subgrantee official should have been aware of the subgrant requirement. The
Commission’s proposed solution is to provide more detailed guidance on the use of
documentation, but we believe it will be no more effective than the existing subgrant
requirement if the Commission does not ensure compliance and hold its own officials and
subgrantees accountable.


Finding No. 3: Late Submission of Member Program Forms, Progress Reports, and
Periodic Expense Reports (PERs)

The three Commission’s AmeriCorps subgrantees we tested did not always submit required
reports by the dates due, as shown in the table below.

        Subgrantees                           Description of Non-Compliance

                              •   17 of the 23 required PERs submitted late
                              •   3 of the 3 required subgrantee progress reports submitted late
Monroe County Schools
                              •   2 of the 7 required enrollment forms submitted late
                              •   3 of the 7 required exit forms submitted late


West Virginia University      •   2 of the 18 required PERs submitted late
Research Corporation          •   1 of the 3 required progress reports submitted late

 United Way of Central West
                              •   2 of the 21 exit forms sampled submitted late
 Virginia


The subgrantees were late in submitting documentation for a number of reasons. MCS
indicated that reports were submitted late as a result of lack of time and staff. WVU
indicated that the two late PERs occurred during consecutive months, and were due to an


                                             20
error in the budgeting section of the report. WVU noticed that the budgeted amount for
Other Program Costs had increased by $2,000 and contacted the Commission. WVU spent
several weeks attempting to identify the source of the budget increase. WVU eventually
submitted the PER the way it had originally prepared it. WVU did not indicate the reason for
submitting the grantee progress reports late, and United Way did not explain why the exit
forms were submitted late.

By submitting documentation late, the Commission cannot properly review, track, and
monitor the subgrantee’s activities and objectives of the AmeriCorps program. Timely
submission of reports would assist the Commission to properly monitor and correct any
errors and/or deficiencies noted. Member enrollment and exit forms are also required to be
submitted on time to maintain the accuracy of the National Service Trust Fund.

Criteria

The cooperative agreement between the Commission and the subgrantee provides applicable
criteria. Section II.F. Reporting requirements, states:

       1. The Grantee agrees to submit to the Commission monthly expense reports,
          including both Federal and match expenditures, to be filed via a Periodic
          Expense Report (PER) in the Web-Based Reporting System (WBRS) by
          the 15th of each month or, if the 15th falls on a weekend or holiday, the
          next business day.

       2. The Grantee agrees to submit to the Commission semiannual program
          progress reports. Such reports are to be filed via the Automated Progress
          Report (APR) module in WBRS. The Grantee agrees to approve its
          annual objectives in the APR by November 1. The following schedule of
          deadlines shall apply to both formula and competitive programs:

                •   Program Year 2005-2006 mid-term due February 3, 2006
                •   Program Year 2005-2006 final due October 29, 2006
                •   Program Year 2006-2007 mid-term due March 1, 2007

AmeriCorps Provisions, IV, AmeriCorps Special Provisions, N, Reporting Requirements,
states in part:

           2. AmeriCorps Member Related Forms.
              a. Enrollment Forms. Enrollment forms must be submitted no later
                 than 30 days after a member is enrolled.
              b. Change of Status Forms. Member Change-of-Status Forms must
                 be submitted no later than 30 days after a member’s status has
                 changed.
              c. Exit/End-of-Term-of-Service Forms.             Exit/End-of-Term-of-
                 Service Forms must be submitted no later than 30 days after a
                 member exits the program or finishes his/her term of service.


                                             21
Recommendation

   5. We recommend that the Corporation ensure and verify that the Commission
      implements subgrantee procedures and reminders to ensure prompt and complete
      financial reporting, as well as member performance results, in accordance with the
      Commission requirement.

Commission’s Response

The Commission states that, in addition to more rigorous training, monitoring, and
compliance practices, it will also require AmeriCorps program directors to use the
Commission's AmeriCorps Monitoring Instrument, Module A: Record of Grantee
Performance, as a self-monitoring tool. This will reinforce for program directors the
importance of timely submission of member forms, progress reports, monthly expense
reports and FSRs.

Auditor’s Comment

The Commission’s proposed actions are noted. The Corporation should follow-up with the
Commission to determine whether the proposed actions were implemented and effective.


Finding No. 4 – Lack of Adequate Procedures to Ensure Program Compliance

Subgrantees did not always comply with requirements for criminal background checks,
member contracts, living allowances, and record retention.

Criminal Background Check. Background check documentation was not available for one
member at the United Way. In addition, two members at MCS and one member at WVU
started their term of service before the completion of criminal background checks. The
members serving in these organizations had substantial access to children. The MCS
members began serving on September 22, 2005, and September 26, 2006. However, the
background results were dated February 17, 2006, and August 30, 2007, respectively. MCS
representatives mentioned that one of the members was fingerprinted before the start of the
program, but the background results were never received from the State Police. They
followed up while we were onsite and were able to provide the information. They also
mentioned that they wait until they have a group of fingerprints before submitting for
background checks. As for the WVU member, we could not find evidence that a background
check was conducted. While we were onsite we brought this issue to WVU’s attention, and
it contacted the vendor and obtained the evidence that the background check was performed.

Member Contract. MCS permitted an AmeriCorps applicant to receive living allowances
and to record service hours before the member service agreement was signed. As a result, we
questioned the living allowance of $375 and the related fringe benefits of $31 claimed for the
period before the member service agreement was signed. We also questioned 41.5 service



                                             22
hours that were charged to the program prior to the member’s signed agreement. However,
after reducing the member’s total service hours by the questioned service hours, the member
still met the minimum required service hours to receive an education award.

Living Allowance. MCS did not always pay member living allowances in equal increments.
The payroll system used by MCS did not allow for the living allowance payments to remain
the same throughout the program year. We did not question living allowance payments
because MCS paid the full allowable living allowance to the members we reviewed, and
those members had completed their terms of service.

Record Retention. The Commission indicated that it was aware of the record retention
policies outlined in the AmeriCorps Provisions, but it did not have formal record policies as
part of its official policies and procedures. The Commission needs to implement such
policies to ensure that Commission and subgrantee documents remain available to the
Corporation for the period specified in the AmeriCorps provisions.

Criteria

AmeriCorps Provisions, IV, AmeriCorps Special Provisions, C., Member Enrollment, states
in part:

       7. Criminal Background Checks. Programs with members (18 and over) or
       grant-funded employees who, on a recurring basis, have access to children
       (usually defined under state or local law as un-emancipated minors under the
       age of 18) or to individuals considered vulnerable by the program (i.e. the
       elderly or individuals who are either physically or mentally disabled), shall, to
       the extent permitted by state and local law, conduct criminal background
       checks on these members or employees as part of the overall screening
       process.

       The grantee must ensure, to the extent permitted by state or local law, that it
       maintains background check documentation for members and employees
       covered by this provision in the member or employee’s file or other
       appropriate file. The documentation must demonstrate that, in selecting or
       placing an individual, the grantee or the grantee’s designee (such as a site
       sponsor) reviewed and considered the background check’s results.

The AmeriCorps Grant provisions, IV, AmeriCorps Special Provisions, C., Member
Enrollment, states in part:

       1. Member Enrollment Procedures.

           a. An individual is enrolled as an AmeriCorps member when all of the
              following have occurred:




                                              23
                i. He or she has signed a member contract;
                ii. The program has verified the individual's eligibility to serve;
                iii. The individual has begun a term of service; and
                iv. The program has approved the member enrollment form in
                WBRS.

           b. Prior to enrolling a member in AmeriCorps, programs make
              commitments to individuals to serve. A commitment is defined as
              signing a member contract with an individual or otherwise entering
              into a legally enforceable commitment as determined by state law.

       2. AmeriCorps Members. The grantee must keep time and attendance records
       on all AmeriCorps members in order to document their eligibility for in-
       service and post service benefits. Time and attendance records must be signed
       and dated both by the member and by an individual with oversight
       responsibilities for the member.

AmeriCorps Provisions, IV, AmeriCorps Special Provisions, I., Living allowances, Other In-
Service Benefits and Taxes, states in part:

       1. Living Allowance Distribution. A living allowance is not a wage.
       Programs must not pay a living allowance on an hourly basis. Programs
       should pay the living allowance in regular increments, such as weekly or bi-
       weekly, paying an increased increment only on the basis of increased
       expenses such as food, housing, or transportation. Payments should not
       fluctuate based on the number of hours served in a particular time period, and
       must cease when a member concludes a term of service.

AmeriCorps Provisions, V, General Provisions, E., Retention of Records, states:

       The Grantee must retain and make available all financial records, supporting
       documentation, statistical records, evaluation and program performance data,
       member information and personnel records for 3 years from the date of the
       submission of the final Financial Status Report (SF 269A). If an audit is
       started prior to the expiration of the 3-year period, the records must be
       retained until the audit findings involving the records have been resolved and
       final action taken.

Recommendations

We recommend that the Corporation:

   6. Ensure the Commission (1) requires subgrantees to review each member file and
      obtain required documentation prior to the member’s start of service, and (2) provides
      training to the subgrantees to ensure they are familiar with program requirements and
      provisions.



                                            24
   7. Ensure the Commission requires subgrantees to adhere to policies on distribution of
      living allowances (i.e., paid in equal increments).

   8. Ensure the Commission revises its policies to include record retention, which at a
      minimum will adhere to the program regulations.

   9. Determine the allowability of the questioned costs and recover unallowable costs and
      applicable administrative costs (in making this determination).

Commission’s Response

The Commission stated that in addition to more rigorous training, monitoring and
compliance practices, it will also develop a self-monitoring tool specifically targeted at
assuring that member files are complete and criminal background checks are received and
filed in a timely fashion. Finally, the Commission will establish a comprehensive records
retention plan that complies with federal records retention requirements and the AmeriCorps
provisions.

Auditor’s Comment

The Commission’s proposed actions are noted. The Corporation should follow-up with the
Commission to determine whether the planned actions were implemented and effective.



This report is intended for the information and use of the Office of Inspector General,
Corporation management, the Commission, and the U.S. Congress. However, this report is a
matter of public record and its distribution is not limited.




Mayer Hoffman McCann P.C.
Woodbridge, Virginia
February 22, 2008




                                            25
                       APPENDIX A

West Virginia Commission for National and Community Service’s
                 Response to Draft Report
To:    Carol Bates, Assistant Inspector General for Audit
       Office of the Inspector General

From: Kim Barber Tieman, WVCNCS Executive Director

Date: February 8, 2008

Re:    WVCNCS Audit Response



Please find enclosed the revised West Virginia Commission for National and Community
Service's (WVCNCS) Response to the Draft Audit Report on Agreed-Upon Procedures
for Corporation for National and Community Service Grants awarded to WVCNCS.
Thank you for the learning experience and the opportunity to make the programs in West
Virginia stronger.




Email cc: Jim Elmore
          Wilfredo Corps
  West Virginia Commission for National and Community Service’s
(WVCNCS) Response to the Draft Report on Agreed-Upon Procedures
for Corporation for National and Community Service Grants awarded
                            to WVCNCS


                        Compliance and Internal Control


                             Finding No. 1
      Lack of Sufficient Subgrantee Monitoring by the Commission
Commission Response: In the period covered by the audit, the WV Commission
sustained an unusual turnover in the administration of the AmeriCorps program. In July
2004, the Commission hired two new program officers, with no overlapping service with
the previous program officers, but with a wealth of documented procedures. Together
they went for peer training at the Connecticut Commission as well as subsequent formal
training with Walker & Company, AmeriCorps grantee meetings and the national
conference.

At the end of March 2006, one left the WV Commission. The remaining assumed most
of his portfolio of programs, except for the Education Award Only program which was
assumed by the part-time Disability Coordinator.

Early in August 2006, the then part-time Disability Coordinator/Education Award Only
program officer left the Commission and another employee took over as program officer
for both Education Award Only and Disability Placement.

On January 18, 2007, the remaining full-time AmeriCorps program officer left the WV
Commission for a program officer position with the Corporation. Because of
miscommunication between the Corporation personnel office and the Commission's full-
time AmeriCorps program officer, she was not sure that she had the position until very
close to her start date and was able to give the WV Commission very little advance notice
of her departure, and therefore no time to advertise her position before she left.

The program officer who was coordinating the Disability Placement and Education
Award Only program, with the advice of the then-Executive Director, handled the entire
AmeriCorps portfolio, in addition to her own Education Award Only and Disability
Placement duties until March 20, 2007 when another program officer was hired. The
new program officer came to the Commission with no prior National Service experience.
She was with the Commission for barely 5 months when she left on August 31, 2007 for
a position with the Corporation State Office.

The reduction in AmeriCorps staff from two program officers to 1.5, plus the staff
turnover, resulted in site visits and monitoring originally planned for March to July 2006

WVCNCS Audit Response                                                                    1
never happening. That there were so few audit findings is a tribute to the Commission's
previous diligent work with grantees.

Commission Action: After the long-time Executive Director retired, the WV
Commission was fortunate to hire a new Executive Director who, like her predecessor, is
well-versed in AmeriCorps and has the additional experience of having directed an
AmeriCorps program for almost ten years. With a new Executive Director and strong
new AmeriCorps team, the WV Commission is committed to restoring the rigorous
training, monitoring, and compliance practices that helped the WV Commission strongly
pass the Standards Review in September 2005. The AmeriCorps team is scheduled to
attend the New Grantee Staff training in March 2008 sponsored by the Corporation. In
addition, the Commission has already started an ambitious training and technical
assistance schedule with grantee program directors and has scheduled site visits at all
programs by the end of March 2008.

Within the next year, the WV Commission will work to model all granting and
monitoring processes on the documented AmeriCorps procedures so that in the event of
future turnover, staff from other grant programs will already be cross-trained and ready to
assist until vacant positions are filled. The Commission is currently utilizing the
Standards and AmeriCorps monitoring tools. The Performance Oversight Committee of
the WV Commission is working with the AmeriCorps staff to ensure monitoring
oversight and compliance. This committee meets at least quarterly.

Detail regarding questioned costs in this finding: NA


                              Finding No. 2
         Inadequate Controls over Recording and Reporting Costs

Finding #2.1(a) WVCNCS - Costs Incurred Before Award:

Commission Response: WVCNCS financial staff developed a coding system within the
constraints of the state of West Virginia’s financial system. The system had a weakness
identified by the WVCNCS which is that similar coding is used for consecutive budget
periods for each 3-year grant. The Fiscal Manager and Office Administrator attended the
Auditor of West Virginia’s state conference in September 2007 and learned a solution to
this coding problem. Commission staff started using the state financial system’s ‘grants
module’ in October of 2007. The implementation of this grant module will be utilized to
separate each year of every three-year grant and will be fully implemented for each WV
Commission grant by 2009, thus solving the issues related to costs being allocated to the
correct grant program year.

Commission Action: The West Virginia Commission will improve its processes by using
the Grants Module in the West Virginia Financial Information Management System
(WVFIMS) for each individual budget period within three-year grants. This will provide
the additional layer of coding needed to distinguish year-end expenses.

WVCNCS Audit Response                                                                     2
In addition, since two expenses cited were travel-related, the West Virginia Commission
will establish its own internal requirements for travel reimbursements that will ensure
timely identification and payment of travel costs.

Detail regarding questioned costs in this finding:
Costs Incurred Before Award - 06CAHWV001- $939; 06CDHWV0001- $40
All “questioned costs incurred before award” stemmed from the coding issues noted
above regarding the need for separate codes for each grant year within extended multi-
year grants. The Commission action described above should eliminate such issues in the
future. The questioned costs included staff travel and a consultant contract.


Finding #2.1(b) WVCNCS - Unallowable Recognition Costs:

Commission Response: The WV Commission accepts the analysis of the auditors that the
reviewer appreciation tokens should be regarded as "gifts" as defined in OMB Circular
A-87 and are therefore unallowable. The Commission will in the future use non-
matching funds for any appreciation tokens to volunteer peer reviewers. At the time that
the questioned costs were incurred, WV Commission staff believed that the Corporation
compensated its grant reviewers. The Commission would appreciate any guidance the
Corporation can provide on appropriate ways to reward peer reviewers whose service is
so vital to the process of selecting and awarding national service grants.

Commission Action: The Commission recognized from conversations with the auditors
during the audit that we should not have purchased gift cards for peer grant reviewers.
Therefore, the Commission has made adjusting entries to remove those expenses from
federal grants and matching sources. The transactions and corrections in question both
occurred within the 2007 grant year and have now been paid from another source.

Detail regarding questioned costs in this finding:
Unallowable Recognition Costs - 06CAHWV0001- $135; 06KCHWV0001- $75
These costs were all gift cards purchased as tokens of appreciation for the volunteer
efforts of peer reviewers for the AmeriCorps Competitive, Formula, and the Learn and
Serve - Project FLOW grant competitions.


Finding #2.1(c) WVCNCS - Costs Incurred Without Prior Written Approval:

Commission Response: The WV Commission disagrees with this finding. As the
auditors noted, 2 CFR 225, Cost Principles for State, Local, and Indian Tribal
Governments (formerly OMB Circular A-87), requires prior approval from the federal
agency for a governmental unit to claim proposal costs as a direct expense. However, the
WV Commission did not incur any proposal costs, a sub-grantee did. The WV
Commission incurred the cost of awarding a grant to a sub-grantee. The WV
Commission had permission to incur the cost of a sub-grant because it was included in


WVCNCS Audit Response                                                                     3
the approved budget. Since the sub-grantee was provided the grant from the WV
Commission for the purpose of paying proposal costs, the sub-grantee’s cost is allowable
according to 2 CFR 230, Cost Principles for Nonprofit Organizations. The WV
Commission’s understanding is that since the sub-grantee is not a governmental unit,
prior approval from the federal agency was not required as indicated by the auditors.

Commission Action: While the WV Commission approved proposal costs for this sub-
grantee, this approval is extremely rare. Through the auditing process, the WV
Commission has learned that sub-grants of this sort are easily questioned. In the future,
the WV Commission will seek guidance from the Corporation before proceeding with
unusual sub-grant requests.

Detail regarding questioned costs in this finding:
Costs Incurred Without Prior Written Approval - 06PTHWV001- $1,050
The WV Commission approved a nonprofit sub-grantee to spend $1,050 on proposal
costs through a sustainability sub-grant of the Commission’s PDAT grant.


Finding #2.2 - Monroe County Schools - Payroll Allocation Method

Commission Response: This finding discussed the fact the program director’s time is
recorded in the agency’s financial system based on the proper budgeted percentage.
However, the program director’s actual time and effort exceeds the federal budget
amount for her personnel expenses. She then counted this additional time as match but
she documented these with notations which were not reconciled with the agency’s
accounting system.

Commission Action: Commission staff met with the program director to discuss proper
documentation of her time and the process to allocate to match. Commission staff will
follow up to ensure compliance.

Detail regarding questioned costs in this finding: NA


Finding #2.3(a) West Virginia University Research Corp. - Entertainment Cost:

Commission Response: As part of a three-day intensive training for Energy Express
members the program provided karaoke as a teambuilding activity one evening. Program
staff viewed the expense as part of training, but concedes that the proper documentation
was not maintained to support the activity as teambuilding.

Commission Action: Commission will integrate examples of allowable and unallowable
costs into the program director training sessions and meetings. Program directors will be
encouraged to document all program expenditures that could potentially be considered
different from the budget detail.



WVCNCS Audit Response                                                                       4
Detail regarding questioned costs in this finding:
Entertainment Cost - 03ACHWV0001- $1,500
Program paid for a karaoke machine as part of member orientation for almost 500 college
aged youth who make up their summer program corps.


Finding #2.3(b) West Virginia University Research Corp. - Unbudgeted Personnel
Costs:

Commission Response: WVU submitted a budget transfer request, which was approved
by the WV Commission, to cover site supervisor costs. Budget transfer request stated
‘mandated pay raises,’ which led the auditors to believe that the request was made to pay
for raises for Energy Express staff at WVU, but then was used for site supervisor salaries.
Program believes that the second reason for transfer was inadvertently omitted. At the
time of the request, Energy Express staff spoke to the WV Commission's AmeriCorps
Program Officer. By the time of the audit, the Commission's now-former program officer
was a Program Officer at the Corporation for National and Community Service. She
recalled the transaction and that the transfer for personnel costs was only partially for the
mandated raises for WVU staff. See copy of message below.

      From: (former program officer)
      Sent: Tuesday, October 23, 2007 11:37 AM
      To: (now-retired Executive Director)
      Subject: Re: Energy Express question

      (Executive Director),
      Sorry it took me a few days to get back to you but I was experiencing some
      technology issues. I do remember the transfer in question that took place last
      November. The program had requested to move additional monies in other
      categories to the personnel line item. I spoke with Shelia and Ruthellen over
      the phone clarifying the transfer. The transfer was made on the budget into
      the personnel line on the budget the commission views (because it is not as
      detailed) but should have been split out in their budget for site coordinators
      and for the mandated pay raises for staff. I do not remember all the details of
      the conversation but do remember the initial confusion with the transfer
      because it was not split out. I wonder if there are not notes of the transfer
      with the line item file for EE however, I should have had them correct their
      request. I hope this explanation will help you to clarify the transfer questions.

      (Former Program Officer)

Commission Action: The WV Commission requests that this questioned cost not be
sustained by the Corporation. While the wording in the line-item transfer was not exact,
the Commission Program Officer understood the purpose of the budget transfer and
approved that request. The Commission has instituted a procedure in which all telephone



WVCNCS Audit Response                                                                      5
requests must be documented after the call with an e-mail exchange that will clarify and
formalize verbal requests.

Detail regarding questioned costs in this finding:
Unbudgeted Personnel Costs - 03ACHWV0001- $22,500
Unbudgeted Personnel Costs that received a verbal approval from AmeriCorps Program
Officer.


Finding #2.4 United Way of Central West Virginia – Unbudgeted Rent Costs

Commission Response: The program's original budget did not include rent as a federal
cost. The LifeBridge AmeriCorps Program Director in 2005-2006, called a program
officer at the West Virginia Commission, to ask how to properly document the rent cost
that United Way was charging to the program, and asked if LifeBridge needed to amend
the budget to allow for the cost. “(the program officer) stated that because rent was in the
same section under ‘operational,’ it was acceptable to charge funds to this line item
without a line item transfer or amendment to the budget,” because the change would be
less than 10%.” That might be correct if the WV Commission did not have a policy that
requires written permission, even if the Corporation does not require a budget revision.
According to 2 CFR 230, Cost Principles for Nonprofit Organizations, the cost is
allowable as charged. However, the cooperative agreement between WVCNCS and the
United Way requires prior written permission for such a charge.

The program acted in good faith on erroneous information provided by their Commission
program officer. The program officer is no longer with the Commission. However, the
Commission concedes that the Commission’s own procedure was not followed in this
particular instance.

Commission Action: The WV Commission requests that this questioned cost not be
sustained by the Corporation since the cost is allowed according to 2 CFR 230. In
addition, the WV Commission may reconsider the merit of maintaining our more
stringent policy. Whatever the decision, the WV Commission will strengthen our
subgrantee training, as well as the training of the Commission's new AmeriCorps team.

Detail regarding questioned costs in this finding:
Unbudgeted Rent Costs - 03ACHWV0001- $2,207
Unbudgeted rent costs that were allowable under federal regulations – $2,207.


                            Finding No. 3
  Late Submission of Member Program Forms, Progress Reports, and
                  Periodic Expense Reports (PERs)




WVCNCS Audit Response                                                                      6
Commission Response: We concur and refer you to the response to Finding 1 for
descriptions of both the circumstances that led to these findings and our remedial action
plan.
Commission Action: In addition to more rigorous training, monitoring and compliance
practices by WV Commission staff described in our response to Finding 1, the
Commission also will require AmeriCorps program directors to use the Commission's
AmeriCorps Monitoring Instrument, Module A: Record of Grantee Performance, as a
self-monitoring tool. This will reinforce for program directors the importance of timely
submission of member forms, progress reports, monthly expense reports and FSRs.

Detail regarding this finding: NA



                            Finding No. 4
      Lack of Adequate Procedures to Ensure Program Compliance
Commission Response: We concur and refer you to the response to Finding 1 for
descriptions of both the circumstances that led to these findings and our remedial action
plan, particularly with regard to AmeriCorps subgrantee compliance with securing
criminal background checks and ensuring that members are enrolled before they begin
service. Monroe County Schools has now developed a procedure outside the school
system payroll system that assures that members are paid in equal increments, as
required. WV Commission staff is fully aware of records retention policy in the
AmeriCorps provisions, but will now make sure the policy is in writing.

Commission Action: In addition to more rigorous training, monitoring and compliance
practices by the WV Commission's staff described in the response to Finding 1, the
Commission also will develop a self-monitoring tool specifically targeted at assuring that
member files are complete and criminal background checks are received and filed in a
timely fashion. The WV Commission will establish a comprehensive records retention
plan that complies with federal records retention requirements and the AmeriCorps
provisions.

Detail regarding this finding:
Living Allowance Prior to Member Contract - 03AFHWV0001 - $406
A total of $406 in living allowance and fringe benefits was charged for a member who
began service prior to her enrollment date with Monroe County Schools. The program
had a group orientation at which members reviewed the contract, member handbook and
procedures, after which members signed their contract, waivers and reporting forms, so
that members were fully informed before making a commitment. The member in
question started serving prior to the group meeting so that she could shadow a member
from the previous year before that member left service. The member whose living
allowance is being questioned served a total of 1,770 hours. Therefore, even with the
disallowed time prior to the signed enrollment form she is eligible for her education
award.

WVCNCS Audit Response                                                                       7
                          APPENDIX B

Corporation for National and Community Service’s Response to Draft
                              Report
                            NATIONAL &r
                            COMMUNITY
                            SERVICE=

To:

From:

Cc:                           hief Financial 0
                            ain, Director of AmeriCorps                .  4 111

                                                                       .' ,  ,.
              William Anderson, Deputy CFO for Finance
              Andrew Kleine, Deputy CFO for Planning and Program Management
              Sherry Blue, Audit Resolution Coordinator, Office of the CFO

Date:          February 11,2008

Subject:      Response to OIG Draft Audit Report: Agreed-upon Procedures for
              Corporation Grants awarded to the West Virginia Commission for
              National and Community Service


Thank you for the opportunity to review the draft audit report of the Corporation's grants
awarded to the West Virginia Commission for National and Community Service. We do
not have specific comments at this time. We will respond to all findings and
recommendations in our management decision when the final audit is issued; we have
reviewed the findings in detail; and worked with the Commission to resolve the audit.
